                         Federal Register / Vol. 64, No. 210 / Monday, November 1, 1999 / Notices                             58851

of the PCB toxicological profile, Paducah        Type of Information Collection             DEPARTMENT OF HEALTH AND
Gaseous Diffusion Plant, and mercury in        Request: Extension of a currently            HUMAN SERVICES
vaccines.                                      approved collection.
  Written comments are welcome and               Title of Information Collection:           Office of Inspector General
should be received by the contact              Emergency and Foreign Hospital
person listed below prior to the opening                                                    Healthcare Integrity and Protection
                                               Services—Beneficiary Statement in            Data Bank: Announcement of Opening
of the meeting.                                Canadian Travel Claims and Supporting
  Agenda items are subject to change as                                                     Date for Reporting and Self-Query Fee
                                               Regulations in 42 CFR, Section 424.123.
priorities dictate.                                                                         AGENCY: Office of Inspector General
  An unavoidable administrative delay            Form No.: HCFA–R–0096 (OMB#
                                                                                            (OIG), HHS.
prevented meeting the 15 day                   0938–0484).
                                                                                            ACTION: Notice.
publication requirement.                         Use: Payment may be made for certain
CONTACT PERSON FOR MORE INFORMATION:           Part A inpatient hospital services and          In accordance with final regulations
Robert F. Spengler, Sc.D., Executive           Part B outpatient hospital services          implementing the Healthcare Integrity
Secretary, BSC, ATSDR, M/S E–28, 1600          provided in a nonparticipating U.S. or       and Protection Data Bank (HIPDB)
Clifton Road, NE, Atlanta, Georgia             foreign hospital when services are           published in the Federal Register on
30333, telephone 404/639–0708.                 necessary to prevent the death or            October 26, 1999 (64 FR 57740), the
  The Director, Management Analysis            serious impairment of the health of the      Office of Inspector General (OIG) is
and Services Office has been delegated         individual. In these situations, the         announcing that the data bank will
the authority to sign Federal Register         threat to the life or health of the          become operational for purposes of
notices pertaining to announcements of         individual necessitates the use of the       reporting information on November 22,
meetings and other committee                   most accessible hospital available and       1999. In addition, the Department now
management activities, for both CDC            equipped to furnish such services.           is exercising its authority to impose a
and ATSDR.                                     Section 3698.4, requires a beneficiary       fee for self-queries to the data bank and
  Dated: October 27, 1999.                     statement indication that after a medical    is announcing a ten dollar fee for health
John Burckhardt,                               emergency occurred, the beneficiary          care practitioners, providers or
Acting Director, Management Analysis and       was traveling between Alaska and             suppliers who request information
Services Office, Centers for Disease Control   another State through Canada by the          about themselves (self-queries) from the
and Prevention.                                most direct route without unreasonable       HIPDB.
[FR Doc. 99–28582 Filed 10–29–99; 8:45 am]     delay to acquire medical care.               1. Reportable Actions
BILLING CODE 4163–70–P                           Frequency: On occasion.                       All reportable actions taken since
                                                 Affected Public. Individuals or            August 21, 1996, the date of passage of
DEPARTMENT OF HEALTH AND                       Households.                                  the HIPDB’s authorizing statute, section
HUMAN SERVICES                                   Number of Respondents: 1,100.              221(a) of the Health Insurance
                                                                                            Portability and Accountability Act
                                                 Total Annual Responses: 1,100.             (HIPAA) of 1996, must be reported to
Health Care Financing Administration
                                                 Total Annual Hours: 275.                   the HIPDB beginning November 22,
[Document Identifier: HCFA–R–0096]                                                          1999—the opening operational date for
                                                 To obtain copies of the supporting
Agency Information Collection                  statement and any related forms for the      the data bank. To submit reports,
Activities: Proposed Collection;               proposed paperwork collections               registered entities must use the HIPDB
Comment Request                                referenced above, access HCFA’s Web          web site at www.npdb-hipdb.com.
                                               Site address at http://www.hcfa.gov/         Specific guidelines for reporting also
AGENCY:   Health Care Financing                regs/prdact95.htm, or E-mail your            can be found on this web site.
Administration, HHS.                           request, including your address, phone
  In compliance with the requirement                                                        2. Self-query User Fee Amount
                                               number, OMB number, and HCFA
of section 3506(c)(2)(A) of the                document identifier, to                         In conjunction with the opening of
Paperwork Reduction Act of 1995, the           Paperwork@hcfa.gov, or call the Reports      the HIPDB for reporting and as part of
Health Care Financing Administration           Clearance Office on (410) 786–1326.          its obligations under the Privacy Act,
(HCFA), Department of Health and               Written comments and                         the Department is offering at this time
Human Services, is publishing the              recommendations for the proposed             self-querying to health care
following summary of proposed                  information collections must be mailed       practitioners, providers and suppliers.
collections for public comment.                                                                Section 1128E(d)(2) of the Social
                                               within 60 days of this notice directly to
Interested persons are invited to send                                                      Security Act, as added by section 221(a)
                                               the HCFA Paperwork Clearance Officer
comments regarding this burden                                                              of HIPAA, specifically authorizes the
                                               designated at the following address:
estimate or any other aspect of this                                                        establishment of fees for the costs of
                                               HCFA, Office of Information Services,
collection of information, including any                                                    processing requests for disclosure and
                                               Security and Standards Group, Division
of the following subjects: (1) The                                                          for providing such information, and the
                                               of HCFA Enterprise Standards,
necessity and utility of the proposed                                                       final regulations at 45 CFR part 61 set
                                               Attention: Dawn Willinghan, Room N2–
information collection for the proper                                                       forth the criteria and procedures for
                                               14–26, 7500 Security Boulevard,
performance of the agency’s functions;                                                      information to be reported to and
                                               Baltimore, Maryland 21244–1850.
(2) the accuracy of the estimated                                                           disclosed by the HIPDB. The Act
burden; (3) ways to enhance the quality,         Dated: October 21, 1999.                   requires that the Department recover the
utility, and clarity of the information to     John Parmigiani,                             full costs of operating the HIPDB
be collected; and (4) the use of               Manager, HCFA Office of Information          through user fees. In determining any
automated collection techniques or             Services, Security and Standards Group,      changes in the amount of the user fee,
other forms of information technology to       Division of HCFA Enterprise Standards.       the Department is employing the criteria
minimize the information collection            [FR Doc. 99–28514 Filed 10–29–99; 8:45 am]   set forth in * 61.13(b) of the HIPDB
burden.                                        BILLING CODE 4120–03–P                       regulations.
58852                    Federal Register / Vol. 64, No. 210 / Monday, November 1, 1999 / Notices

   Specifically, § 61.13(b) states that the      The Meeting will be open to the public as     U.S.C., as amended. The grant applications
amount of each fee will be determined         indicated below, with attendance limited to      and the discussions could disclose
based on the following criteria:              space available. Individuals who plan to         confidential trade secrets or commercial
                                              attend and need special assistance, such as      property such as patentable material, and
   • direct and indirect personnel costs;     sign language interpretation or other            personal information concerning individuals
   • physical overhead, consulting, and       reasonable accommodations, should notify         associated with the grant applications, the
other indirect costs including rent and       the Contact Person listed below in advance       disclosure of which would constitute a
depreciation on land, buildings and           of the meeting.                                  clearly unwarranted invasion of personal
equipment;                                       The meeting will be closed to the public      privacy.
   • agency management and                    as indicated below in accordance with the          Name of Committee: National Institute of
                                              provisions set forth in section 552b(c)(6),      Mental Health Special Emphasis Panel.
supervisory costs;
                                              Title 5 U.S.C., as amended for the review,         Date: November 16–17, 1999.
   • costs of enforcement, research and       discussion, and evaluation of individual           Time: 8:30 a.m. to 5:00 p.m.
establishment of regulations and              intramural programs and projects conducted         Agenda: To review and evaluate grant
guidance;                                     by the NATIONAL HUMAN GENOME                     applications.
   • use of electronic data processing        RESEARCH INSTITUTE, including                      Place: Holiday Inn, 5520 Wisconsin
equipment to collect and maintain             consideration of personnel qualifications and    Avenue, Chevy Chase, MD 20815.
information—the actual cost of the            performance, and the competence of                 Contact Person: Michael J Moody,
service, including computer search            individual investigators, the disclosure of      Scientific Review Administrator, Division of
                                              which would constitute a clearly                 Extramural Activities, National Institute of
time, runs and printouts; and                 unwarranted invasion of personal privacy.        Mental Health, NIH, Neuroscience Center,
   • any other direct or indirect costs          Name of Committee: Board of Scientific        6001 Executive Blvd., Room 6154, MSC 9609,
related to the provision of services.         Counselors, National Human Genome                Bethesda, MD 20892–9606, 301–443–3367.
   The HIPDB incurs substantial labor         Research Institute.                                Name of Committee: National Institute of
costs for manual data input, sorting and         Date: November 8–10, 1999.                    Mental Health Special Emphasis Panel.
responding to calls for Helpline                 Open: November 8, 1999, 6:00 p.m. to 6:30
                                                                                                 Date: November 22, 1999.
assistance in order to process self­          p.m.
                                                                                                 Time: 9:00 a.m. to 5:00 p.m.
                                                 Agenda: To discuss program issues.
queries, as well as substantial postage          Place: Airlie House, 6809 Airlie Road,
                                                                                                 Agenda: To review and evaluate grant
and packaging costs for mailing self­                                                          applications.
                                              Warrenton, VA 20187.
query results to practitioners. As a                                                             Place: Chevy Chase Holiday Inn, 5520
                                                 Closed: November 8, 1999, 6:30 pm to          Wisconsin Avenue, Chevy Chase, MD 20815.
result, based on an analysis of the costs     Adjournment on November 10, 1999.                  Contact Person: Asikiya Walcourt, PHD,
of processing self-queries, the                  Agenda: To review and evaluate personal       Scientific Review Administrator, Division of
Department is establishing a ten dollar       qualifications and performance, and              Extramural Activities, National Institute of
fee for each self-query.                      competence of individual investigators.          Mental Health, NIH, 6001 Executive
   In order to minimize administrative           Place: Airlie House, 6809 Airlie Road,        Boulevard, Room 6138, MSC 9606, Bethesda,
costs, the Department will accept             Warrenton, VA 20187.                             MD 20892–9609, 301–443–6470.
                                                 Contact Person: Claire Rodgaard, Assistant
payment for self-queries only by credit                                                          Name of Committee: National Institute of
                                              to the Scientific Director, Division of
card. The HIPDB accepts Visa,                 Intramural Research, Office of the Director,     Mental Health Special Emphasis Panel.
MasterCard, and Discover. This fee is         National Human Genome Research Institute,          Date: December 2, 1999.
effective beginning November 19, 1999.        45 Convent Drive, Building 49, Room 4A06,          Time: 2:00 p.m. to 3:00 p.m.
   The Department will continue to            Bethesda, MD 20892, 301–435–5802.                  Agenda: To review and evaluate grant
                                                 This notice is being published less than 15   applications.
review the user fee periodically, and
                                              days prior to the meeting due to the urgent        Place: Neuroscience Center, National
will revise it as necessary. Any changes                                                       Institutes of Health, 6001 Executive Blvd.,
in the fee and its effective date will be     need to meet timing limitations imposed by
                                              the intramural research review cycle.            Bethesda, MD 20892 (Telephone Conference
announced in the Federal Register. We                                                          Call).
will also announce the fee structure and      (Catalogue of Federal Domestic Assistance
                                                                                                 Contact Person: Henry J. Haigler, PHD,
                                              Program Nos. 93.172, Human Genome
the opening date for queriers submitted       Research, National Institutes of Health, HHS)
                                                                                               Scientific Review Administrator, Division of
by authorized entities through a separate                                                      Extramural Activities, National Institute of
                                                 Dated: October 25, 1999.                      Mental Health, NIH, Neuroscience Center,
Federal Register notice to be published
shortly.                                      Anna Snouffer,                                   6001 Executive Blvd., Room 6150, MSC 9608,
                                              Acting Director, Office of Federal Advisory      Bethesda, MD 20892–9608, 301/443–7216.
  Dated: October 26, 1999.                    Committee Policy.                                  Name of Committee: National Institute of
June Gibbs Brown,                             [FR Doc. 99–28451 Filed 10–29–99; 8:45 am]       Mental Health Special Emphasis Panel.
Inspector General.                            BILLING CODE 4140–01–M
                                                                                                 Date: December 6, 1999.
[FR Doc. 99–28497 Filed 10–29–99; 8:45 am]                                                       Time: 11:00 a.m. to 2:00 p.m.
                                                                                                 Agenda: To review and evaluate grant
BILLING CODE 4150–04–P
                                                                                               applications.
                                              DEPARTMENT OF HEALTH AND
                                                                                                 Place: St. James Hotel, 950 24th Street,
                                              HUMAN SERVICES                                   N.W., Washington, DC 20037.
DEPARTMENT OF HEALTH AND                                                                         Contact Person: Jean G. Noronha, PHD,
HUMAN SERVICES                                National Institutes of Health                    Scientific Review Administrator, Division of
                                                                                               Extramural Activities, National Institute of
National Institutes of Health                 National Institute of Mental Health;             Mental Health, NIH, Neuroscience Center,
                                              Notice of Closed Meetings                        6001 Executive Blvd., Room 6154, MSC 9609,
National Human Genome Research                                                                 Bethesda, MD 20892–9609, 301–443–6470.
Institute; Notice of Meeting                     Pursuant to section 10(d) of the
                                              Federal Advisory Committee Act, as               (Catalogue of Federal Domestic Assistance
   Pursuant to section 10(d) of the           amended (5 U.S.C. Appendix 2), notice            Program Nos. 93.242, Mental Health Research
                                                                                               Grants; 93.281, Scientist Development
Federal Advisory Committee Act, as            is hereby given of the following
                                                                                               Award, Scientist Development Award for
amended (5 U.S.C. Appendix 2), notice         meetings.                                        Clinicians, and Research Scientist Award;
is hereby given of a meeting of the             The meetings will be closed to the public      93.282, Mental Health National Research
Board of Scientific Counselors, National      in accordance with the provisions set forth in   Service Awards for Research Training,
Human Genome Research Institute.              sections 552b(c)(4) and 552b(c)(6), Title 5      National Institutes of Health, HHS)
